<html>
<title> - [H.A.S.C. No. 113-20]EQUIPPING, MODERNIZING, AND SUSTAINING THE NATIONAL GUARD, ARMY RESERVE, AND AIR FORCE RESERVE AS AN OPERATIONAL FORCE IN A TIME OF BUDGET UNCERTAINTY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 113-20]
________________________________________________________________________





                      EQUIPPING, MODERNIZING, AND
                     SUSTAINING THE NATIONAL GUARD,
                      ARMY RESERVE, AND AIR FORCE
                    RESERVE AS AN OPERATIONAL FORCE
                    IN A TIME OF BUDGET UNCERTAINTY

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 19, 2013




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                                   ______

                      U.S. GOVERNMENT PRINTING OFFICE

  80-192                   WASHINGTON : 2013
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="395e4956795a4c4a4d515c5549175a565417">[email&#160;protected]</a>  










              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                   MICHAEL R. TURNER, Ohio, Chairman

FRANK A. LoBIONDO, New Jersey        LORETTA SANCHEZ, California
JOHN FLEMING, Louisiana              MIKE McINTYRE, North Carolina
CHRISTOPHER P. GIBSON, New York      JIM COOPER, Tennessee
JON RUNYAN, New Jersey               JOHN GARAMENDI, California
MARTHA ROBY, Alabama                 RON BARBER, Arizona
PAUL COOK, California                DANIEL B. MAFFEI, New York
JIM BRIDENSTINE, Oklahoma            JOAQUIN CASTRO, Texas
BRAD R. WENSTRUP, Ohio               TAMMY DUCKWORTH, Illinois
JACKIE WALORSKI, Indiana             WILLIAM L. ENYART, Illinois
MAC THORNBERRY, Texas                PETE P. GALLEGO, Texas
WALTER B. JONES, North Carolina      MARC A. VEASEY, Texas
ROB BISHOP, Utah
               Jesse Tolleson, Professional Staff Member
                  Doug Bush, Professional Staff Member
                     Julie Herbert, Staff Assistant















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Tuesday, March 19, 2013, Equipping, Modernizing, and Sustaining 
  the National Guard, Army Reserve, and Air Force Reserve as an 
  Operational Force in a Time of Budget Uncertainty..............     1

Appendix:

Tuesday, March 19, 2013..........................................    11
                              ----------                              

                        TUESDAY, MARCH 19, 2013
    EQUIPPING, MODERNIZING, AND SUSTAINING THE NATIONAL GUARD, ARMY 
  RESERVE, AND AIR FORCE RESERVE AS AN OPERATIONAL FORCE IN A TIME OF 
                           BUDGET UNCERTAINTY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Turner, Hon. Michael R., a Representative from Ohio, Chairman, 
  Subcommittee on Tactical Air and Land Forces...................     1

                               WITNESSES

Clarke, Lt Gen Stanley E., III, USAF, Director, Air National 
  Guard..........................................................     2
Ingram, LTG William E., Jr., USA, Director, Army National Guard..     1
Jackson, Lt Gen James ``JJ,'' USAF, Chief, U.S. Air Force Reserve     4
Talley, LTG Jeffrey W., USA, Chief, U.S. Army Reserve............     3

                                APPENDIX

Prepared Statements:

    Clarke, Lt Gen Stanley E., III...............................    46
    Garamendi, Hon. John, a Representative from California.......    17
    Ingram, LTG William E., Jr...................................    20
    Jackson, Lt Gen James ``JJ''.................................    67
    Talley, LTG Jeffrey W........................................    59
    Turner, Hon. Michael R.......................................    15

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Turner...................................................    85

Questions Submitted by Members Post Hearing:

    Mr. Enyart...................................................    92
    Mr. Maffei...................................................    89
    Mr. Runyan...................................................    90
    Mrs. Walorski................................................    95
 
    EQUIPPING, MODERNIZING, AND SUSTAINING THE NATIONAL GUARD, ARMY 
  RESERVE, AND AIR FORCE RESERVE AS AN OPERATIONAL FORCE IN A TIME OF 
                           BUDGET UNCERTAINTY

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                           Washington, DC, Tuesday, March 19, 2013.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room 2118, Rayburn House Office Building, Hon. Michael R. 
Turner (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MICHAEL R. TURNER, A REPRESENTATIVE 
  FROM OHIO, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mr. Turner. I call to order the hearing of the Air and Land 
Subcommittee for the purposes of looking at the issue of 
equipping and sustaining challenges of Army National Guard, Air 
National Guard, Army Reserve, and the Air Force Reserve.
    We have votes that are coming up, and so we are going to 
try to quickly convene and give, you know, our guests today, 
our panel members the ability to put on the record their 
statements and get to some questions. The purpose today is 
really to hear from you to get your understanding of the 
challenges that you are facing, and the effects of our 
budgetary constraints.
    With that, I would like to turn to my ranking member, Mr. 
Garamendi.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 15.]
    Mr. Garamendi. I agree with you, Mr. Chairman, and will 
submit my statement for the record. I do have a question when 
the time comes. Great.
    [The prepared statement of Mr. Garamendi can be found in 
the Appendix on page 17.]
    Mr. Turner. We will turn to General Ingram for a 5-minute 
opening statement.

 STATEMENT OF LTG WILLIAM E. INGRAM, JR., USA, DIRECTOR, ARMY 
                         NATIONAL GUARD

    General Ingram. Chairman Turner, Members of the committee, 
thank you for the opportunity to speak with you today. It is my 
honor to represent the 358,000 citizen soldiers of the Army 
National Guard.
    Thanks to the support of this committee, the daily support 
of families and employers, and the magnificent performance of 
guard soldiers. I am proud to say that today's Army National 
Guard is the, best manned, best led, best trained, and best 
equipped and most experienced in its 376-year history.
    As everyone is aware, more than a half-million individual 
soldiers have mobilized since the beginning of the warfight 
after 2011. At the same time, Guard soldiers continue to 
fulfill their centuries-old obligation to their communities. 
Last year, in fiscal year 2012, the Army National Guard served 
over 447,000 duty days conducting State missions, which was for 
us historically a very slow year.
    The one message that I would like to leave with you today, 
is this: It would be a terrible waste of energy, effort, and 
resources to let the Army National Guard, a superb operational 
force, atrophy as a result of across-the-board cuts. Those cuts 
would fail to consider the significant value relative to cost 
of the Army National Guard. It only takes a continued modest 
investment to maintain an operational force when compared to 
the strategic reserve the Nation had prior to 9/11.
    Our current equipping situation is good, but not without 
concerns. The Army National Guard UH-60 Black Hawk [utility 
tactical transport helicopter] fleet is the oldest in the Army. 
Sequestration has caused the Army to postpone third- and 
fourth-quarter field and depot level maintenance, equipment 
reset in fiscal year 2013. Over time, readiness could be 
significantly degraded. Sequestration also impacts contracts 
and programs vital to maintaining our readiness. Cuts would 
impact a number of programs that provide our units with 
collective training, and contractor logistical support that 
maintain some of our equipment. With citizen soldiers as our 
foundation, the Army National Guard presents tremendous value 
to our Nation, our national defense, and America's communities. 
We live up to our motto of: ``Always ready, always there.'' I 
appreciate the opportunity to be here today, and look forward 
to your questions. Thank you.
    [The prepared statement of General Ingram can be found in 
the Appendix on page 20.]
    Mr. Turner. General Clarke.

STATEMENT OF LT GEN STANLEY E. CLARKE III, USAF, DIRECTOR, AIR 
                         NATIONAL GUARD

    General Clarke. Chairman Turner and members of the 
subcommittee, I am honored to be here before you today. I will 
keep my remarks almost as short as the time that I have 
actually been the director of the Air National Guard. I can't 
express what a pleasure it is to be here, a week after arriving 
back in Washington, to represent the outstanding men and women 
of our Nation's Air National Guard.
    Since 2006, I have observed the men and women of the Air 
National Guard from the outside, first, as a member of the air 
staff, and then as a member of the U.S. diplomatic mission in 
Turkey. Most recently, I was a consumer of Air National Guard 
capabilities as the Commander of the First Air Force and the 
Commander of the Continental Region for NORAD [North American 
Aerospace Defense Command].
    My conclusion from the outside, and I am sure you will 
agree, is that the men and women of the Air National Guard are 
the most dedicated and professional in our Nation's history. 
They have performed both admirably, both overseas and at home. 
They have earned our respect and thanks.
    As the newly appointed Director of the Air National Guard, 
I have set three immediate priorities. First, to minimize the 
dramatic toll the current budget turmoil has taken on the Air 
National Guard readiness to both its people and its equipment.
    Second, to work with the Air Force Reserve and the Air 
Force to provide an optimum mix of Active, Reserve, and Guard 
Forces for a cost-effective national defense and robust 
domestic response capability.
    Finally, to ensure that all components of the total Air 
Force are modernized concurrently so that they remain relevant 
and interoperable between both the air components and the joint 
forces.
    In closing, thank you for inviting me. Thank you for your 
service to our Nation, and thank you for the support of the Air 
Force and its Reserve Components. I look forward to your 
questions.
    [The prepared statement of General Clarke can be found in 
the Appendix on page 46.]
    Mr. Turner. General Talley.

   STATEMENT OF LTG JEFFREY W. TALLEY, USA, CHIEF, U.S. ARMY 
                            RESERVE

    General Talley. Chairman Turner, distinguished members of 
the subcommittee, thank you very much for the opportunity to 
appear before you today. On behalf of the 200,000 Army Reserve 
soldiers, 12,000 civilian and military technician employees and 
their families, I want to thank the committee for its continued 
outstanding support to the Army Reserve. I am proud to report 
that America's Army Reserve is a ready and trained operational 
force. For more than 11 years of war, we have provided critical 
lifesaving and life-sustaining capabilities to all Services and 
all Components. Our soldiers are on duty at home and abroad, 
continuously engaged in missions in support of your Army and 
the Department of Defense.
    The days of a strategic Army Reserve, a force that was 
poorly resourced and seldom used, are simply gone. Today the 
Army Reserve is a complementary force for the Active Component, 
providing routine combat support and service support, essential 
for both combat and contingent mission requirements. The Army 
Reserve is also a great return for the taxpayer on investment. 
We comprise almost 20 percent of the total Army, for just 6 
percent of its budget.
    Furthermore, the overwhelming majority of our soldiers are 
traditional reservists; that is, they hold full-time civilian 
jobs, often in the same specialty as their military occupation. 
By the way, this includes our general officers. For example, 
nearly 60 percent of the total Army's medical units and 
capabilities are found in the Army Reserve. Those Reserve 
soldiers are doctors and nurses in the private sector, so they 
keep their technical skills sharp at little or no cost to the 
Defense Department. That civilian experience and outlook allows 
the Army Reserve soldiers to bring a unique perspective to 
complex environments.
    For example, last week, I was in Djibouti, Africa, visiting 
one of my civil affairs teams. One of my soldiers, who also 
happened to be a firefighter in his hometown of Seattle, 
Washington, was helping set up in a local city a firefighting 
first response training program. This was in addition to him 
executing all of the civil affairs missions. All I can simply 
say is, what a great example of America doing good in the 
world. I could share many stories like this, as the Army 
Reserve currently has mobilized and deployed over 12,000 
soldiers serving in 28 countries, with almost half of those in 
Afghanistan.
    Recently, the Army Reserve's expanded role in the 2012 
National Defense Authorization Act was tested, and we deployed 
pump units for dewatering missions in Brooklyn and Queens, New 
York, in support of our fellow citizens devastated by Hurricane 
Sandy. Whatever the needs of the Nation are, the Army Reserve 
citizen soldiers are ready to serve.
    Last June, when I became the Chief of the Army Reserve and 
the Commanding General of the United States Army Reserve 
Command, I published a document called ``Rally Point.'' It 
outlines my strategic and operational intent and priorities. In 
``Rally Point,'' I emphasized that the Army Reserve must 
provide trained, readied soldiers, leaders, and units in 
support of the total force. In order to accomplish this 
mission, I ask Congress for support in two areas: continued 
modernization of our equipment and procurement assimilation 
training systems, both of which I would be happy to elaborate 
on during Q and A.
    In closing, I want to thank the committee and the House for 
passing H.R. 933. This bill provides much-needed funding and 
increased flexibility to help our Armed Forces deal with the 
impacts of sequestration.
    Mr. Chairman, members of the committee, thank you again for 
the opportunity to testify on behalf of our soldiers and 
civilians, and families of the Army Reserve. We simply have the 
best Army Reserve in history, and with your help, we can keep 
it that way.
    Twice a citizen, Army strong.
    [The prepared statement of General Talley can be found in 
the Appendix on page 59.]
    Mr. Turner. General Jackson.

STATEMENT OF LT GEN JAMES ``JJ'' JACKSON, USAF, CHIEF, U.S. AIR 
                         FORCE RESERVE

    General Jackson. Mr. Chairman, distinguished members of the 
subcommittee, thank you very much for the opportunity to appear 
before you. I am honored to represent the American citizen 
airmen as the chief of the Air Force Reserve and Commander of 
the Air Force Reserve Command. The Air Force Reserve is a 
combat-ready force composed of approximately 71,000 proud 
reservists, stationed locally throughout the United States, and 
serving globally for every combatant command. We provide our 
Nation's defense with operational capability, strategic depth, 
and surge capacity.
    Since 1981, the National Guard and Reserve Equipment 
Appropriation, known as NGREA, has been critical to the Air 
Force Reserve. NGREA has funded the Air Force Reserve to 
upgrade equipment for better targeting pods, self-protection, 
and communication capability, most recently proving its combat 
value in Afghanistan and in Iraq. NGREA serves as a model for 
acquisition excellence by providing timely combat capability to 
the warfighter and using their direct feedback, which makes 
NGREA a Department of Defense good-news story; the positive 
intersection of innovation, modernization, and cost savings.
    The current top three Air Force Reserve procurement 
priorities include defensive systems for our aircraft; data 
link and secure com [communications], for improved battlefield 
situational awareness; and enhanced precision engagement 
capability.
    The Air Force Reserve also supports limited NGREA 
authorization for research, development, and test, and 
evaluation, known as RDT&E. Software is the backbone of our 
advanced military equipment and is required as our legacy 
aircraft are modernized to today's combatant commander needs. 
Software RDT&E will aid in increasing capability and 
functionality for weapons system enhancements for our aircraft.
    The Air Force Reserve is a proud member of the total force 
team, providing global vigilance, reach, and power and ready to 
answer our Nation's call.
    I appreciate the enduring support of this committee and all 
you do for America's citizen airmen. I look forward to working 
with you each to ensure that the Air Force Reserve remains 
highly capable and ready to serve. I stand by ready to answer 
your questions.
    [The prepared statement of General Jackson can be found in 
the Appendix on page 67.]
    Mr. Turner. Well, thank you, gentlemen.
    As you are aware, as I stated at the beginning of the 
hearing, we are going to try to conclude this total hearing by 
2:30 so that, for the convenience of our witnesses, they don't 
have to return. And so we are going to try to truncate this a 
bit. For Members who are here who would like to include an 
opening statement on the record or for questions that we are 
not able to get to that they would like to ask for the record, 
please submit those within 5 days.
    Similarly, for our witnesses, if you would like to add 
anything to both your opening or any of your answers, feel 
free, within the next 5 days, to supply additional text.
    With that, and for expedience, I am only going to ask one 
question, but I am asking to each of the witnesses, and it is 
about sequestration and CRs [Continuing Resolutions]. On 
sequestration, as I have told each of you, I voted against this 
mess, but I think we are in a situation where the 
implementation now is in your hands, and we are all very 
concerned about its effects on your ability to modernize, and 
how those cuts may be allocated.
    I would like each of you, if you would, to speak for a 
moment on the issue of sequestration and its implementation, 
your concern on your modernization efforts and the impacts, if 
you wish, that are the compounding result of CRs. And then, 
General Clarke, if you would add in your reflections on that, 
the Rickenbacker Air Guard Station in Ohio has been chosen as 
one of five finalists for the KC-46A [air-to-air tanker and 
strategic airlifter] to replace the KC-135 [Stratotanker], and 
certainly, we are concerned about how all of this might be 
affecting that down-select process and any thoughts you have on 
that.
    We will begin with General Ingram.
    General Ingram. Thank you, Mr. Chairman.
    Sequestration will affect us in many ways, probably pushing 
procurement to the right; in some cases significantly, in other 
cases not as much. We will also be affected by our ability to 
maintain our equipment. The furlough of military technicians 
will impact our maintenance programs. The fact that the depots 
in the Army will be severely curtailed, if not closed, during 
the third and fourth quarter of this year will cause a 
maintenance backlog. Our equipment is returning from theater, 
will be stacked up awaiting reset, which will again affect our 
equipment on hand.
    And I will leave it at that as far as time, and I would 
like to answer for the record as well.
    [The information referred to can be found in the Appendix 
on page 85.]
    Mr. Turner. Thank you.
    General Clarke.
    General Clarke. Yes, sir.
    With regards to the continuing resolution and 
sequestration, obviously, immediate impacts would also lead to 
furloughs, would be the big part of it. The National Guard 
really rests on the use of our full-time force to train and 
administrate our part-time force but also to do operational 
duties as well. We prioritize to make sure that we don't let 
any operational missions fall behind, like the Aerospace 
Control Alert. But if you look at any Guard unit with all of 
the drill statisticians out there, if they are unable to drive 
the fuel trucks, people to repair the fuel trucks, take an oil 
analysis, analyzing it, all of that, if we lose that 
capability, it starts to hurt our readiness to a certain 
degree.
    As far as modernization, there is a backbone to 
modernization that has to be realized that goes out through all 
of the people who are software engineers and hundreds of 
thousands, possibly, of civil service employees who also 
support the enterprise that makes modernization come to light. 
So we would be affected by that, maybe possibly a slowdown in 
modernization efforts.
    Sir, you asked me specifically about Rickenbacker. I can 
take that for the record also, but I will tell you that the Air 
Force has a very specific process, a very codified process for 
selecting which bases will get a KC-46 in the future. Should 
the opportunity present itself, once one is selected, the Air 
National Guard will always look for the opportunity to do an 
association with a unit there if possible, if not outright 
select it as a unit-owned, if you will, aircraft at that 
location. So I can get you more information for the record, 
also, sir.
    [The information referred to can be found in the Appendix 
on page 85.]
    Mr. Turner. Okay.
    General Talley.
    General Talley. Mr. Chairman, thank you for the question.
    Civilian workforce for the United States Army Reserve is 
predominantly military technicians, and they do remarkable work 
every day in keeping the doors to our units and centers open 
for business. They represent over 40 percent of my full-time 
manning, which is only authorized at 13 percent. That is going 
to be the biggest impact on the Army Reserve will be the 
civilian furloughing. Most of these civilians are low-grade 
employees. Furloughing them will provide significant financial 
stress to them and their families, have a severe impact on the 
Army Reserve in terms of everyday functions, like maintenance, 
pay processing, logistics support, training support, and base 
support operations.
    The second major impact of sequestration will be on medical 
readiness. Right now, the Army Reserves has the highest medical 
readiness in the history of the Army Reserve. Our medical 
readiness is really three parts. One is our annual physical 
assessment, our dental exams and our shots or immunizations. 
Right now, we are at 76 percent, so that means 76 out of 100 
soldiers would have met all of the requirements for all three 
of those. We get that support provided to us by contracts we 
provide to civilian medical professionals. We will have to 
reduce those contracts and that will result in over 80,000 less 
exams and associated medical assessments during the rest of 
2013, reducing our medical deployability.
    CRA [Continuing Resolution Authority] effects just 
basically pile on to the impacts of sequestration. It will 
reduce our OMAR [Operation and Maintenance] funding by $70 
million. By the way, sequestration requires us $292 million of 
cuts between now and the end of the year. CRA will cause us to 
reduce OMAR by $70 million and will have similar additional 
impacts beyond those I have already mentioned for 
sequestration. It will also reduce my RPA [Reserve Personnel, 
Army] funding by $200 million, which will limit all reservists 
to 14 days statutory annual training, but that will reduce 
their ability to participate in schools, receive incentives, 
and impact our training. Thank you, sir.
    Mr. Turner. General Jackson.
    General Jackson. Mr. Chairman, thank you very much for the 
question. Probably the biggest impact I would like to go ahead 
and join with my colleagues at the table here to say, the Air 
Reserve Technician Program, which is our full-time support, is 
obviously being furloughed along with all of the civilians at 
this time. That is 14,000 members of the Air Force Reserve, 
which is, unfortunately, our full-time support, and it will be 
adversely impacted every single day because of that.
    In addition to that, when it comes to the aircraft and 
weapons system sustainment, we are in the same opportunity and 
see the same things as my colleagues here at the table. When it 
comes to the impact of sequestration on NGREA, we have 
approximately 9 percent cut in that obligation, which means 
that as we try to go ahead and be good stewards of our Air 
Force and our congressional funding stream, we are unable to do 
that because we are going to have broken programs, and broken 
appropriations that weren't able to be fixed in the future.
    The impact specifically will have to do with trying to 
purchase some targeting pods for the F-16s [Fighting Falcon 
multirole fighter aircraft] that we are attempting to do, 
additional vehicle maintenance and vehicle purchases, and in 
addition to that, some C-130 [Hercules tactical airlifter] 
upgrades that we are attempting to do this fiscal year.
    Sir, I am standing by to answer any other questions for the 
record.
    Mr. Turner. Mr. Garamendi.
    Mr. Garamendi. I do have one question I would like to take 
up, and that has to do with Beale Air Force Base. Last year 
Congress specifically prohibited the Air Force from retiring 
the Global Hawk [RQ-4 unmanned aerial vehicle surveillance 
aircraft] or even preparing to retire the Global Hawk. Yet it 
has been announced that Beale Air Force Base, that the 13th 
Reconnaissance Squadron will be deactivated. So the question 
is, how could that be, since those are 200 troops that 
specifically provide support for the Global Hawk program? Has 
there been a formal order? Who signed it? How does this fit 
with the law? And if it was issued, I would like an 
explanation.
    I happen to represent Beale, and I am mightily concerned 
about this, since it is contradictory to what we had intended 
to have happen.
    General Jackson.
    General Jackson. Congressman, thank you very much for your 
question. And as you are well aware, we are very proud of the 
940th Wing in the 13th Reconnaissance Squad in Beale. They 
received their mission about 6 years ago, as we lost our KC-
135s, and they have done an outstanding job. As you are also 
aware, Congressman, we have not submitted the 2014 budget at 
this time, so any pieces in that 2014 budget we cannot really 
disclose with you at this time, but I am happy to answer your 
questions in the future.
    The publication or the release that you mentioned was in 
error, sir. It is a mea culpa on my part. The unit said that 
they were going to be closing down at the end of 2013. But the 
13th RS [Reconnaissance Squad] is fully funded through the end 
of fiscal year 2013 and is funded in the program in fiscal year 
2014. Sir, I am happy to answer any of your questions for the 
record that you would like to have.
    Mr. Garamendi. Thank you.
    You mentioned the word when?
    General Jackson. I am sorry, sir?
    Mr. Garamendi. When will you answer the other questions?
    General Jackson. Well, sir, the other questions, like I 
said, is when the 2014 submission comes forward. You will see 
exactly that the programming does have the 13th RS in there 
through the end of the fiscal year.
    Mr. Garamendi. Thank you.
    Mr. Turner. Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    So, in the last several weeks, this committee has heard 
testimony from several Active Duty commanders that have been 
very complimentary to the National Guard and the Reserve 
Forces. In fact, the Deputy Commander of Special Operation 
Forces Command talked about North Africa and admitted that he 
could not do a lot of his operations without the support of 
both Guard and Reserve troops and those technicians that are 
there especially on the aviation side of the house.
    And the CENTCOM [U.S. Central Command] commander actually 
just last week said that the State partnership program and 
those soldiers that participate in that program are ``bang for 
the buck,'' his words, one of the best things going. And he was 
echoed by European command. The Guard especially has been an 
operational force. You have developed this force through blood, 
sweat, and tears for the last 10 years.
    I wonder, General Ingram, and General Clarke, if you could 
speak to what minimum end strength, if you have a number in 
mind, of the Army and of the Air Guard Forces that would allow 
you to maintain that operational force to support both domestic 
missions and also Active Duty missions but also at the best 
bang for the buck. You know, we spoke before how the National 
Guard provides operational soldiers at a lower cost than Active 
Duty soldiers. Is there an end strength that you are looking at 
or perhaps a number of brigade combat teams, that sort of 
thing, that would be ideal to allow us to maintain that 
operational force, enjoy the cost savings as well, but still be 
able to flex up as needed?
    General Ingram. Thank you for the question. As far as the 
Army National Guard is concerned, our balance across the 54 
States and territories today is really very well balanced. In 
the last 10 years, as we have gone to module formations, we 
have made some tweaks in our distribution of force structure so 
that each State, territory, and the District have what we call 
the essential 10 capabilities that assist the States in 
conducting domestic operations.
    That, coupled with the brigade combat teams that we have in 
the Army National Guard--we currently have 28--and those 
brigade combat teams provide the best structure for domestic 
operations. They are multifunctional. They are organized in 
squads, platoons, companies, and battalions that allow a fight-
tonight capability. Every soldier in those formations knows the 
chain of command. They know who they report to, and they can be 
called on very short notice to respond immediately to domestic 
situations.
    The question of balance and force structure ACRC [Active 
Component/Reserve Component] mix is a question that is being 
considered at multiple levels. The Guard is in very good shape 
now the way we are readied across the Nation, and I will defer 
to my colleague.
    General Clarke. Thank you, Congresswoman, for the question. 
The minimum end strength part of that is, I would say, right 
about now is a sweet spot for us. One of the greatest things 
the Air Force gives the Air National Guard is experienced 
airmen, and we put them to work right away, and we keep them 
busy. But I would say that balance, with 89 wings we have right 
now, I would say it is a good balance. It is healthy.
    With regard to the operational force, though, meeting the 
same standards, taking the same inspections, and then being a 
part, and this is probably one of the most important, is being 
a part of the air expeditionary force, and that is doing the 
same job that any other airman might be, either at home or 
overseas, is so critical. And one thing I would hate to ever 
see us back out of is not being engaged overseas, involved in 
operations. That puts us on step with anyone else, and I would 
tell you that over the history of the last conflicts in Asia 
and everything, we have done an outstanding job of meeting 
every requirement every time with great airmen, largely because 
the Air Force decided years ago to make sure that the Air 
National Guard members and the Air Force Reserve meet the same 
standards, are inspected, and are part of the Air Expeditionary 
Force.
    Ms. Duckworth. Thank you, General.
    I actually started out my military career in the Army 
Reserves, 86th ARCOM [Army Reserve Command], and I have seen 
over the years the value gained from that institutional 
knowledge. I went to Iraq in the National Guard with three 
Vietnam helicopter pilots and the information, that knowledge 
that was there was critical to our success. And I have seen 
time and again forces who leave Active Duty, come to Reserve 
Forces, and we don't lose that information and that experience 
that was there. So thank you for your testimony today.
    Mr. Turner. Thank you, Ms. Duckworth.
    We are going to conclude. We have 4 minutes on the clock to 
make it to votes. I am going to ask you a question for the 
record, but I am going to give it to you orally so that you see 
the importance of the question.
    When you look at the National Guard and Reserve Equipment 
Account, the NGREA, Congress has been providing additional 
funding for the Guard and Reserve Component for equipment and 
modernization. In 2003, since 2003, it is about $61 billion, 
includes $9 billion additional funding that was part of NGREA. 
We are having difficulty tracking the funding to ensure that it 
is making it to its intended use and purposes. So we are 
working on the issue of the challenges of transparency. We are 
going to ask you to please help us explain the process of how 
that has been working in the funding, and what processes are in 
place to ensure that when we provide the funding that the 
funding actually does go to equipment. And our staff will work 
with you on additional specifics for that, and we look forward 
to your answers.
    [The information referred to can be found in the Appendix 
on pages 85-86.]
    Gentlemen, thank you so much for participating in this 
today, and again, please do take the opportunity to extend your 
comments for the record and we apologize, obviously, for the 
inconvenience of votes falling in between this hearing. Thank 
you. We will be adjourned.
    [Whereupon, at 2:29 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             March 19, 2013

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 19, 2013

=======================================================================

      
                  Statement of Hon. Michael R. Turner

      Chairman, House Subcommittee on Tactical Air and Land Forces

                               Hearing on

          Equipping, Modernizing, and Sustaining the National

            Guard, Army Reserve, and Air Force Reserve as an

           Operational Force in a Time of Budget Uncertainty

                             March 19, 2013

    Today the Tactical Air and Land Forces Subcommittee meets 
to receive an assessment of the modernization needs, and the 
equipping and sustainment challenges of the Army National 
Guard, Air National Guard, Army Reserve, and Air Force Reserve. 
Right now the Pentagon is facing cuts levied by Secretary Gates 
and President Obama, the Budget Control Act of 2011 and its 
attached sequester, which I opposed, and the constraints of 
continuing resolutions. Given the current budget uncertainty we 
face, and the long-term impacts of sequestration to 
modernization, we believe it necessary to obtain the current 
views of National Guard and Reserve Component senior leaders.
    We welcome our distinguished panel of witnesses:
        <bullet> LLieutenant General William Ingram, Jr., 
        Director, Army National Guard;
        <bullet> LLieutenant General Stanley Clarke, Director, 
        Air National Guard;
        <bullet> LLieutenant General Jeffrey Talley, Chief, 
        U.S. Army Reserve; and
        <bullet> LLieutenant General James Jackson, Chief, U.S. 
        Air Force Reserve.
    The Department has made progress in providing much-needed 
funding to equip the National Guard and Reserve Components, to 
enhance its role as an operational reserve. The major issue 
will be sustaining this funding given the acute national 
economic challenges we currently face. Congress has not 
hesitated in trying to address the equipment readiness needs we 
have noted in many Guard and Reserve units over the years.
    National Guard and Reserve Component procurement from 
fiscal year 2003 to fiscal year 2012 has totaled approximately 
$60.9 billion, averaging almost $6.7 billion per year. Since 
2003, Congress has authorized a total of approximately $9.2 
billion in additional funding above the President's budget 
requests in a separate, distinct National Guard and Reserve 
Equipment Account. This funding has enjoyed sustained 
bipartisan support both on this committee and throughout 
Congress. We are now faced with the significant challenge of 
determining the adequacy of Reserve force budgets and equipment 
status during a time of severe fiscal austerity. The questions 
we are now being forced to ask are, ``Can we afford to equip 
and sustain the National Guard and Reserve Components as an 
operational force?'' and ``What is the risk of not doing so?''
    The Guard and Reserve Components have proven to be an 
invaluable asset during Operation Enduring Freedom, Operation 
Iraqi Freedom, and Operation New Dawn. These past 12 years have 
justified the need for an operational Reserve Component force 
that must be adequately manned, trained, and equipped, rather 
than the Cold War model of a ``strategic reserve.'' The 
National Guard also has a dual-role responsibility and has to 
be mission ready to rapidly respond to local, State, and 
Federal emergencies. The Guard and Reserve units in my district 
and the State of Ohio have played an invaluable role in combat 
operations in Iraq and Afghanistan, as well as humanitarian 
missions here in the United States. The 445th Air Lift Wing at 
Wright-Patterson Air Force Base provides strategic transport of 
personnel and equipment as well as aeromedical evacuation 
capabilities to the warfighter. Air National Guard units at 
Springfield, Rickenbacker, and Mansfield as well as the 37th 
Infantry Brigade Combat Team in Columbus, have all been very 
active in supporting the warfighter over the past decade of 
war.
    Without these units our country would not be able to 
sustain the All-Volunteer Force. I am concerned that these 
current budgetary challenges, to include 10 years of arbitrary 
across-the-board cuts resulting from sequestration, will have 
negative impacts on the current operational status of the Guard 
and Reserve. 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 19, 2013

=======================================================================

      
             RESPONSES TO QUESTIONS SUBMITTED BY MR. TURNER

    General Ingram. The ARNG currently has 3 BCTs (45th IBCT, OK, 1/
34th HBCT, MN, and 37th IBCT, OH) and 366 Separate Reporting Units (non 
BCTs) at different stages of the equipment reset process. The same 
units are currently executing Field Level Equipment Reset in 48 States, 
Territories and District of Columbia. The ARNG Field Level Reset FY13 
requirement is $62.3M. The program is funded $42.4M, a shortfall of 
$20M to complete the Field Reset of these units. These units also have 
equipment in the Sustainment Level Equipment Reset at Army Materiel 
Command (AMC) Depots. If AMC cancels 3rd and 4th quarter Depot 
Maintenance work, this would impact the approximately 1000 pieces of 
equipment from ARNG Units. If no further funding is received, or unit 
equipment is not repaired at the Depots, unit equipment will not get 
completed within the Reset window of the ARFORGEN cycle. This could 
negatively affect these Units' ability to conduct their ARFORGEN Train/
Ready year-one (TR1) training. [See page 6.]

    General Clarke. Yes, Rickenbacker AGS, OH was chosen as a basing 
candidate for the newest tanker, the KC-46A. Although ultimately 
dependent on future budgetary constraints, sequestration should have no 
immediate impact to the KC-46A selection process. As I have mentioned 
previously, the Air Force has an in-depth internal, collaborative 
process for choosing the best basing location based on many factors, to 
include environmental impacts, current logistical support, cost-saving 
measures and many others.
    Site surveys have been concluded at all candidate locations to 
include Rickenbacker AGS and are now being vetted through the Air Force 
Strategic Basing Process. Preferred and Reasonable Alternative 
selections by the SecAF/CSAF are expected in the middle of May of this 
year. The basing decision will be considered final at the conclusion of 
necessary environmental studies which are expected in the Spring of 
2014. [See page 6.]

    General Ingram. Once the NGREA Spend Plan is approved, purchase 
requests are processed with a Line of Accounting (LOA) established. 
This LOA is specific to ARNG NGREA. Contracts are developed to procure 
the items with application of the LOA to be used and when/where the 
items are scheduled to be delivered to the ARNG units. Distribution 
plans are developed by the ARNG based on ARNG G3 priorities and are 
provided as part of a formal HQDA G8 fielding plan or as an addendum to 
the contract with the PM/Vendor. The systems procured with NGREA are 
fielded/delivered using a Material Fielding Plan (MFP) and the 
processes outlined in AR 700-142.
    Currently there are no processes fully in place that allow the ARNG 
to systematically validate the actual delivery of a specific piece of 
equipment and tie it back to the appropriation used to procure that 
item in an easily auditable manner. The intent is to simplify the 
transparency process and to achieve improved Transparency through the 
incorporation of Item Unique Identification (IUID) as part of Global 
Combat Support System-Army (GCSS-Army), which is projected to reach 
full interoperability in FY17. The Army has made tremendous progress in 
resolving this issue and continues to diligently work towards achieving 
transparency and traceability of procurement-funded equipment from the 
President's budget request to delivery at the unit level. [See page 
10.]

    General Clarke. Transparency of Equipment Deliveries: Current 
accounting and tracking systems do not correlate expenditure of 
particular funds regardless of source to deliveries of specific 
equipment items. Progress on this issue is reported annually through 
the Equipment Management Briefing (EMB) as well as in the National 
Guard and Reserve Equipment Report (NGRER). The Equipment Transparency 
Report (ETR) is prepared by SAF/AQX, forwarded to OSD/RA and 
subsequently sent to Congress for review. The portion prepared by SAF/
AQX includes the specific report for equipment transparency.
    The execution and obligation of NGREA funds for the Air National 
Guard are managed by NGB/A5 and can be accurately correlated with 
specific equipment and modifications. Improvements need to be made to 
include delivery in the current accounting and tracking systems at 
System Program Offices (SPO). NGB/A5 prepares an annual spending plan 
for the NGREA for each fiscal year and submits it to Congress through 
OSD/RA for approval. NGB/A5 tracks funds from obligation via a contract 
to expenditure of funds through a program office for delivery to a 
unit. [See page 10.]

    General Talley. The National Guard and Reserve Appropriations are 
invaluable and improves equipment modernization and readiness 
throughout our forces. Between 2003 and 2013, the Army Reserve has 
received $1.01B of NGREA. NGREA appropriations are sent directly to the 
Reserve Components from Department of Defense. AR executes all 
financial controls and management with DOD oversight. The Army Reserve 
coordinates directly with DOD Program Managers for pricing which allows 
us to track equipment delivery to a particular NGREA appropriation. The 
current DOD NGREA process requires the Army Reserve to submit semi-
annual funding execution updates. Furthermore, Army Reserve must adhere 
to DOD obligation rate targets of 80% in year 1, 90% in year 2, and 
100% in year 3. This provides visibility and transparency for Army 
Reserve and OSD leaders. As future Army budgets decrease, the Army 
Reserve must continuously support the Joint, Interagency, and 
Multination missions at home and abroad while maximize resources in a 
fiscally constrained environment. [See page 10.]

    General Jackson. NGREA has been crucial for modernizing the AFR 
legacy aircraft fleet; buying vehicles, support equipment, and 
communications equipment that is needed to keep our airmen and 
facilities safe. The AFR makes sure its NGREA funding goes toward the 
purchase of equipment that meets the intended use of 3010 and 3080 
appropriations. To that end, it works closely with SAF and OSD to make 
all spending as transparent as possible. The AFRC modification Book is 
published annually to provide insight to Congress and industry on 
prospective programs which are anticipated to be technically executable 
within the next year. FY NGREA Procurement Plans are submitted to 
Congress after funds are appropriated to identify which programs will 
be executed and outline what will be procured with the allocated 
funding. All programs are thoroughly vetted by AFRC, the AF/RE staff; 
SAF/MR and OSD/RA to assure that programs meet the intent of equipping 
the AFR. Funding is aligned within the procurement plans to projects 
based on requirement prioritization and program executability 
considerations. After approval of each FY Procurement plan, any re-
alignment packages must be approved by OSD when moving funding between 
projects on the approved procurement plan, and reallocation packages go 
to Congress when any new projects are added to the procurement plan. 
Any changes to NGREA procurement plans undergo a vigorous and thorough 
accounting at several levels to assure correctness and transparency. 
Re-alignment and reallocation are typically caused by real world events 
impacting funding executability, such as late funding, acquisition 
delays, program re-phasing, new emergent needs, prioritization changes 
and estimate errors or by redistributing cost savings resulting from 
contracts negotiations, technical efficiencies, emergence of a lower 
cost technical solution or seizing an opportunity to gain cost 
efficiencies by combining acquisition projects with those of other 
organizations. Each realignment and reallocation package includes 
justification for each funding move to ensure transparency and to 
identify any issues that might require initiation of planning and/or 
process improvement efforts. [See page 10.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 19, 2013

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. MAFFEI

    Mr. Maffei. What is the National Guard and Reserve doing to provide 
dual-use force protection equipment for both operations in their 
respective States and overseas? Specifically, how do we ensure service 
members have proper force protection equipment at locations such as 
entry control points especially at forward operating bases and 
readiness centers at home?
    General Ingram and General Clarke. Currently, the Air National 
Guard Security Forces are utilizing the National Guard and Reserve 
Equipment Account (NGREA) to field multiple platforms and equipment 
items that can provide dual-use force protection in both home station 
as well as deployed locations. Items include but are not limited to: 
hand-held explosive detection devices that fill a capability gap at Air 
National Guard installations in addition to Less-Than-Lethal Domestic 
Operations Kits that are comprised of neuromuscular incapacitation 
devices (TASER) and full body riot control protective equipment amongst 
other items. Both of these programs are planned to be fully funded 
using FY13 appropriations of the NGREA and provided two of each, the 
explosive detection equipment and the Less-Than-Lethal Kits to all Air 
National Guard installations.
    Army National Guard (ARNG) soldiers are issued the Army's finest 
personal protective equipment for deployment to theater and are thus 
protected exactly like Active Component soldiers in all tactical 
scenarios. As most ARNG soldiers have deployed and retained the 
equipment, the personal protective equipment available for domestic 
response scenarios is quite good. One exception is the body armor, 
which is withdrawn from our soldiers when they return from theater. The 
ARNG has a limited amount of suitable body armor for the most hazardous 
domestic response situations. ARNG organizations designated for 
response in each State also have access to the standard crowd control 
equipment and non-lethal equipment that is increasingly more 
sophisticated. Additional stocks of this type equipment can be provided 
to the State for forecasted or unforecasted requirements.

    Mr. Maffei. I represent Hancock Field Air National Guard Base 
located in Syracuse, NY. I am interested in your explanation of how the 
Air National Guard plans to fully integrate remotely piloted aircraft 
(RPAs) into the National Airspace System. How do you envision RPAs 
being integrated into the National Airspace System in order to execute 
Defense Support of Civil Authority (DSCA) and Homeland Security 
missions?
    General Clarke. The FAA Modernization and Reform Act of 2012 will 
provide for the safe integration of RPAs, and other Unmanned Aircraft 
Systems (UAS), into the national airspace system not later than 
September 30, 2015. The Air National Guard rated pilots, based out of 
Hancock Field and all around the CONUS flying MQ-1/9 aircraft would be 
able to ``file and fly'' just like any other manned aircraft.
    Several agencies are working on sense and avoid (SAA) technologies 
and the ANG is looking for Joint opportunities in SAA to allow ANG RPAs 
to fly fully integrated with manned flight operations. Currently, 
Syracuse must have its RPA Launch and Recovery Element (LRE) at Fort 
Drum's Wheeler-Sack Army Airfield due to its adjacency to restricted 
airspace. This limits total sortie time due to time spent driving to 
and from the Fort. Initiatives by the 174ATKW to operate the LRE out of 
Hancock Field will decrease cost and increase sortie times by over 20%. 
However, until RPAs are fully integrated within the national airspace 
system, any MQ-9 operations out of Hancock Field will still require 
costly observers to escort the RPA into restricted airspace.
    DSCA operations, including support to Federal, State, local, and 
tribal government require SecDef approval IAW DOD 3025.18 as well as an 
FAA Certificate of Authorization or Waiver (COA). The FAA's COA process 
is cumbersome and limits the NY ANG's ability to support DSCA due to 
time required for approval and limited location of LRE. Once ANG RPA 
rated pilots are able to file flight plans and operate in the NAS in 
the same manner as manned aircraft, the MQ-9s in NY will be much more 
efficient when supporting DSCA operations.

    Mr. Maffei. What is the National Guard and Reserve doing to provide 
dual-use force protection equipment for both operations in their 
respective States and overseas? Specifically, how do we ensure service 
members have proper force protection equipment at locations such as 
entry control points especially at forward operating bases and 
readiness centers at home?
    General Talley. Critical Dual Use (CDU) is equipment that is 
required for each unit to perform their designed mission, and is also 
suitable for potential Defense Support to Civilian Authorities (DSCA) 
and other CONUS contingency missions. The HQDA G3 approves the Army CDU 
equipment list. The Army goal is to fill the CDU equipment requirements 
to at least 80% to ensure the units are properly equipped.

    Mr. Maffei. What is the National Guard and Reserve doing to provide 
dual-use force protection equipment for both operations in their 
respective States and overseas? Specifically, how do we ensure service 
members have proper force protection equipment at locations such as 
entry control points especially at forward operating bases and 
readiness centers at home?
    General Jackson. Since 2008 AFRC has obligated $4.1M from National 
Guard Reserve Equipment Appropriations (NGREA) to purchase modern 
weapon suites for our deployable airmen. These purchases have included 
M-4 carbines, M-9 handguns, M-320 Grenade launchers, M-24 rifles, and 
state-of-the-art thermal sights to enable precision engagement in all 
environments. Some of these weapons are also dually used in stateside 
base defense missions. In addition to these equipment purchases, we 
invest an average of $1.5M per year from our annual O&M appropriations 
for acquisition and sustainment of force protection equipment including 
tents, generators, handheld thermal imagers, mobility containers, 
tactical harnesses, helmets and accessories, first aid kits, night 
vision equipment, sensors, modular camera systems for vehicle 
inspections and tactical operations, level IV ballistic vests, 
concealed vests, TASERs, and sim-munitions for active shooter training, 
and mobile defensive fighting positions for all nine Air Force Reserve 
Command (AFRC) installations. We also spend an average of $1.8M (O&M) 
annually to maintain and extend the life cycle of our intrusion 
detection systems, ground-based radar systems and upgrade/modernize 
these system at all of our bases. AFRC ensures the adequacy of force 
protection at our installations annually through the AFRC Vulnerability 
Assessment Program administered by our Security Forces division and 
overseas through ensuring our Citizen Airmen are fully equipped to 
Total Force integrated defense standards. Finally, we have leveraged 
our facility modernization account to proactively upgrade our 
installation Entry Control Points to meet modern force protection 
criteria including automatic vehicle barrier systems, over-watch 
capability, and large vehicle inspection capability. Our FY14 
President's Budget MILCON request contains a project to modernize and 
relocate the entry control point at Homestead Air Reserve Base.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. RUNYAN
    Mr. Runyan. In this time of fiscal uncertainty and imminently 
shrinking budgets, what are the National Guard and Reserve doing to 
increase competition amongst vendors in an effort to decrease the costs 
related to purchases? My concern is that the program of record is 
prohibiting potentially lower cost, commercial-off-the-shelf (COTS) 
products from reaching our warfighters.
    For example, a small business producing simulation training 
solutions for Guard training facilities with a cost-effective, state-
of-the-art simulation training product, is unable to provide new 
systems to National Guard units that have requested them because the 
product is not on an approved program of record list. Thank you for 
your service and consideration of this question.
    General Ingram and General Clarke. The Air National Guard (ANG) has 
a long history of purchasing lower cost alternatives to Air Force 
programs of record (POR). For example, the ANG is purchasing KC-135 
Boom Operator Simulation Systems (BOSS) in lieu of the Boom Operator 
Weapon System Trainer (BOWST), the AF POR. The BOSS is approximately 
half the cost of the BOWST, and will meet or exceed the capabilities of 
the BOWST for training boom operators. The BOSS fits in existing ANG 
facilities whereas the size of the BOWST drives an additional MILCON 
bill. Another example is the ANG working with the Air Force to hold a 
competition for the Helmet Mounted Integrated Targeting (HMIT) system 
to equip F-16 block 30 and A-10 aircraft. The HMIT system meets or 
exceeds all of the capabilities of the Joint Helmet-Mounted Cueing 
System (JHMCS), the POR. The HMIT competition was structured to promote 
small business participation to encourage innovative solutions. HMIT is 
approximately 25% the cost of JHMCS. The ANG will continue to pursue 
similar opportunities within the bounds of the Defense Acquisition 
System to ensure limited NGREA funds are used as efficiently as 
possible.
    The Army National Guard (ARNG) has procured COTS simulation 
training products in the past, and anticipates continuing to do so when 
appropriate. However, there are several factors that must be taken into 
consideration when making these kinds of purchase decisions.
    First, a State's request, reflective of an emerging requirement or 
training capability gap, must be validated. The ARNG has recently 
chartered an Equipment Requirements Validation (ERV) Council of 
Colonels and Integrated Process Team (IPT) to consider requests for 
equipment and to prevent procurement of redundant and excess 
capabilities.
    Second, the capabilities of a requested simulation training system 
must provide appropriate training value, must accurately simulate the 
weapon or system being trained, must represent Army doctrine, and must 
be safe to operate. Therefore, each COTS product must be evaluated for 
content, safety, and performance by Army and ARNG proponents to ensure 
the product safely provides expected training capabilities. Third, 
before procuring a COTS simulation training system, consideration must 
be given to determine how the system will be supported throughout its 
life-cycle. For instance, simulators are highly technical, and require: 
periodic technical refresh to address obsolescence; occasional 
modernization to maintain currency; and upgrades when additional 
capabilities are desired. When the ARNG procures COTS simulation 
training systems, there is risk that life-cycle sustainment will not be 
adequately provided. The ARNG hopes to avoid investing in systems that 
may not be properly supported or require re-allocation of programmed 
ARNG funds.

    Mr. Runyan. In this time of fiscal uncertainty and imminently 
shrinking budgets, what are the National Guard and Reserve doing to 
increase competition amongst vendors in an effort to decrease the costs 
related to purchases? My concern is that the program of record is 
prohibiting potentially lower cost, commercial-off-the-shelf (COTS) 
products from reaching our warfighters.
    For example, a small business producing simulation training 
solutions for Guard training facilities with a cost-effective, state-
of-the-art simulation training product, is unable to provide new 
systems to National Guard units that have requested them because the 
product is not on an approved program of record list. Thank you for 
your service and consideration of this question.
    General Talley. The Army Reserve's equipment procurement budget is 
nested within the Army's total budget. The Army uses the Defense 
Acquisition System to maximize vendor competition and quantity 
discounts. The Army Reserve also uses the Defense Acquisition System 
for National Guard and Reserve Equipment Appropriation (NGREA) 
purchases for equipment. This flexibility allows the Army Reserve to 
get best price for its purchases. As future Army budgets decrease, the 
Army Reserve must continuously support the Joint, Interagency, and 
Multination missions at home and abroad while maximize resources in a 
fiscally constrained environment.

    Mr. Runyan. In this time of fiscal uncertainty and imminently 
shrinking budgets, what are the National Guard and Reserve doing to 
increase competition amongst vendors in an effort to decrease the costs 
related to purchases? My concern is that the program of record is 
prohibiting potentially lower cost, commercial-off-the-shelf (COTS) 
products from reaching our warfighters.
    For example, a small business producing simulation training 
solutions for Guard training facilities with a cost-effective, state-
of-the-art simulation training product, is unable to provide new 
systems to National Guard units that have requested them because the 
product is not on an approved program of record list. Thank you for 
your service and consideration of this question.
    General Jackson. Our program of record for National Guard Reserve 
Equipment Appropriations (NGREA) procurement is developed by staff that 
continually monitors requirements, commercial offerings, and best 
industry practices. Programs of record are established through a formal 
requirements and acquisition process that identifies, validates, and 
prioritizes competing requirements submitted by the warfighters. 
Initial identification of technical requirements and proposed solutions 
is completed at the installation level and then prioritized at the 
Command for resource allocation. Acquisition action is initiated based 
on the established priorities when funding becomes available and 
ensures that competitive procedures are followed. The command 
acquisition process gives preference to both commercial-off-the-shelf 
(COTS) products and small business entities while balancing immediate 
procurement costs with follow-on sustainment costs. The Reserve Command 
continues its efforts to increase competition by developing additional 
sources for services, supplies and construction projects through 
providing timely advance information to industry, by issuing draft 
solicitations, and conducting industry days for new and follow-on 
contract requirements. The command closely reviews and challenges 
requests for ``Sole source'' requirements with the result that such 
requests are frequently subject to competitive solicitation based on 
comprehensive market research.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. ENYART
    Mr. Enyart. With the Army's divestment of C-23, what will replace 
its capabilities? The C-27J has similar capabilities, does it not?
    General Ingram. The Army is developing a plan to implement Public 
Law 113-6 and not divesting the C-23 aircraft with FY 13 appropriated 
funds. The C-27J was originally scheduled to replace the C-23 however 
SECDEF in 2009 transferred the fixed wing cargo mission and aircraft to 
the U.S. Air Force. If the C-23 is divested, the ARNG and other 
organizations supported by the C-23 will have to seek other support 
options. The C-27 is a larger, more modern and capable aircraft than 
the C-23.
    Mr. Enyart. If both the C-23 divested and C-27J were cancelled, 
won't we be lacking a critical capability for both the warfight and 
HLS?
    General Ingram, General Clarke, and General Jackson. The Army does 
not have a requirement for the C-23. The Memorandum of Agreement signed 
by CSA and CSAF states that the USAF will support the Army's cargo time 
sensitive requirements. To date the Army believes the requirements are 
being met and will continue to be met by the USAF. The Services 
establish requirements and there is no service recognized HLS 
requirement for the C-23. If the C-23 is divested, organizations 
currently supported by the C-23, to include the ARNG, will turn to the 
ANG and USAF for airlift requirements or will utilize other 
alternatives.
    Any reduction in fleet and troop strength has a direct impact on 
mission readiness and response capabilities for both domestic and 
contingency operations. The loss of both the C-23 and C-27J will mean 
transferring more burdens onto the Army's rotary wing fleet and/or more 
work onto the Air Force's C-130 fleet. For the Air Force, this will 
require a conscious and concerted effort to support the warfighter's 
requirements and enable our domestic mission. Further, while the Air 
National Guard has realized a growth in its C-130H fleet size as a 
result of the revised 2013 Fiscal Year total force projection, prudent 
steps must be taken to sustain this aging fleet and ensure there is no 
loss of mission capability over time.

    Mr. Enyart. The Air Force indicates that sufficient A-10s will 
remain available to meet the requirements of the new strategic 
guidance.
    a) What is that number?
    b) What influence, if any, did the Army have in determining the 
appropriate number?
    c) Where will they be stationed?
    d) What will the ratio be for Active Duty, Air National Guard, and 
Air Force Reserve?
    e) How many A-10s will be retired?
    f) The Air Force is pulling A-10s out of Europe. Where will they 
go?
    g) How was the appropriate number determined?
    h) What is the multirole platform the Air Force intends to use to 
replace A-10s?
    i) What is the antiarmor, loiter, and refueling capability of the 
new platform?
    General Clarke. a) A total of 283 A-10C will remain in service as a 
result of NDAA; the breakout is: Active Duty--142, AFMC Test--1, ANG--
85, AFRC--55.
    b) Operational Plans, which form the basis for USAF combat force 
structure, are developed in cooperation with the Joint Staff. The U.S. 
Army participates in determining Close Air Support requirements to 
which the A-10 fleet size is tied as part of the Joint Operational 
Planning Process.
    c) <bullet>  Active Duty (143): PACAF-OSAN AB Republic of Korea--
24, Active Duty Moody AFB, GA--49, Davis Monthan AFB AZ--57 (one AFMC 
aircraft assigned to AATC in Tucson AZ), Nellis AFB Nevada--13.
         <bullet>  Reserves (55): Whiteman--28, DM--27.
         <bullet>  Air National Guard (85): Martin State--22, Boise--
        21, Fort Wayne--21, and Selfridge--21.
    d) 30% ANG, 19% AFR, 50% Active Duty.
    e) 61 A-10Cs will be retired.
    f) A-10Cs from Spangdalhem will transfer to 354th Fighter Squadron 
at Davis Monthan.
    g) The number was determined by matching the tactical air 
requirements from Operational Plans with fiscal guidance. Increasing 
budget constraints place a premium on multirole fighters like the F-16 
vs. mission-specific aircraft such as the A-10C.
    h) The F-35 Lightning II is the intended replacement for the A-10.
    i) The F-35 will be equipped to carry radar and heat-seeking air to 
air missiles, as well as precision-guided and free-fall unguided air to 
ground weapons. In addition, it will be armed with a four-barrel GAU-
22/A 25mm cannon capable of firing high explosive incendiary/armor 
piercing ammunition. The F-35 is capable of air refueling and possesses 
advanced stealth and electronic countermeasures that improve its 
ability to survive and operate in an anti-access area denial 
environment. Its loiter time is dependent upon mission and 
configuration; however it is assessed to be comparable to or greater 
than current 4th Generation Air Force strike aircraft.
    Mr. Enyart. The Air Force desires to retire the 65 oldest C-130s. 
Will this have a more profound impact on the Reserve than Active Duty?
    General Clarke. There is risk in the Guard and Reserve possessing 
all C-130H aircraft in the Air Force. No clear path to modernizing the 
C-130H exists. The C-130H requires modernization to comply with 2020 
national and international Communication, Navigation, Surveillance and 
Air Traffic Management (CNS/ATM) standards. Currently, none of the C-
130Hs are scheduled to be compliant by 2020--resulting in reduced 
operational capability. In addition to making force structure changes 
within the C-130 feet, the FY13 NDAA also introduced language stating 
that a congressionally directed study needed to be completed before the 
Air Force can cancel the Avionics Modernization Program (AMP) 
ultimately placing funding solution in limbo. Lastly, because the Guard 
and Reserve possess all of the C-130H fleet, we will be susceptible to 
single fleet risks (e.g., unexpected maintenance issues, future fleet 
cuts, etc.)
    [Note: 2013 NDAA temporarily reduced the retirement of C-130H, the 
oldest C-130s in the fleet. Ultimately the ANG is growing 13% in C-130H 
aircraft through the FYDP as the C-27J divests. The 2013 NDAA also 
shifts all C-130H aircraft to the Guard and Reserve by FY17. Active 
Duty stands down two operational C-130H units at Little Rock AFB; the 
last remaining Active Duty C-130H unit (Yokota AB, Japan) converts to 
C-130J in FY17. The ANG adds three new C-130H units (Montana, 
Connecticut and Ohio)].
    Mr. Enyart. The Air Force recommends retiring 20 KC-135s. Will 
those be the oldest models? Where will those come from? Will this have 
outsized impact on the Air National Guard and U.S. Air Force Reserve?
    General Clarke. Though the Air Force, through the FY13PB, 
originally recommended retiring 20 KC-135s, per the AF Total Force 
Proposal (TFP) Air Force ultimately decided to retire 16 aircraft via 
the 2013 National Defense Authorization Act (NDAA).
    These aircraft were divided amongst the Major Commands and resulted 
in the Air National Guard (ANG) earning eight retirement slots. The 
affected States and units were:
        <bullet>  one from Arizona (161ARW--Air Refueling Wing)
        <bullet>  one from Iowa (185ARW)
        <bullet>  six from Ohio (121ARW)
    However,
        <bullet>  eight KC-135s were added to Mississippi (186ARW)--
        four of which are internal ANG transfers from Tennessee 
        (134ARW) and Wisconsin (128ARW)--four of which are sourced from 
        the Active Duty Air Force.
    All aircraft were chosen using a computer model developed by the 
System Program Office (SPO) that takes multiple variables into account 
to include age, flight hours, severity of usage, fuel cell score, trend 
data . . . etc. to calculate and overall aircraft composite score. As 
the ANG fleet of KC-135 aircraft is now at a total 176 (down from 180 
aircraft with the implementation of FY-13 NDAA) the impact on mission 
accomplishment is negligible.
    Mr. Enyart. The Air Force claims it can achieve savings by 
substituting C-130s for C-27J. What is the cost per flying hour for 
C130s vs. C-27J? What is the cost to procure C130s vs. C-27J? What cost 
have already been expended to procure C-27J? What are the cancellation 
costs if any? Can the C-27J perform HLS missions at a lower cost than 
C130s?
    General Clarke and General Jackson. The Air Force annually 
publishes, in Air Force Instruction 65-503, Table A15-1, an operating 
and support cost for each weapon system. For FY13, the Table identifies 
the Department of Defense cost for the C-27J as $2,231 per flying hour. 
The C-130H cost is $7,975 while the C-130J cost is $4,716 per flying 
hour.
    The C-27J's average aircraft procurement cost was $28.5 million. 
The C-27Js cost was based on a firm-fixed price contract which has now 
expired. The cost to procure a new C-130J is approximately $70 million.
    The Air National Guard does not manage the procurement or 
divestment costs for the C-27J program. That responsibility rests with 
the Air Force Material Command's C-27J Systems Program Office at 
Wright-Patterson Air Force Base, and with the Secretary of the Air 
Force's Acquisition Office. They can provide the procurement costs to 
date as well as the respective cancellation costs associated with the 
proposed program divestment.
    The C-27J and C-130 perform the same relative mission, delivering 
critical personnel and assets to forward or austere locations. The 
relative cost difference to perform such a mission is dependent on the 
amount of cargo or personnel that must be moved, and the relative 
distance involved in each movement. The C-27J would be more efficient 
when moving small response teams or critical payloads between nearby 
States, while the C-130 and even the C-17 would be more efficient in 
the movement of larger response teams and supplies across the country.

    Mr. Enyart. With the Army's divestment of C-23, what will replace 
its capabilities? The C-27J has similar capabilities, does it not?
    General Talley. The Army Reserve does not own any C-23s and so 
hadn't planned on getting any C-27Js in the Army Reserve. This is all 
ARNG.
    Mr. Enyart. If both the C-23 divested and C-27J were cancelled, 
won't we be lacking a critical capability for both the warfight and 
HLS?
    General Talley. The Army Reserve does not own any C-23s and so 
hadn't planned on getting any C-27Js in the Army Reserve. This is all 
ARNG.

    Mr. Enyart. The Air Force indicates that sufficient A-10s will 
remain available to meet the requirements of the new strategic 
guidance.
    a) What is that number?
    b) What influence, if any, did the Army have in determining the 
appropriate number?
    c) Where will they be stationed?
    d) What will the ratio be for Active Duty, Air National Guard, and 
Air Force Reserve?
    e) How many A-10s will be retired?
    f) The Air Force is pulling A-10s out of Europe. Where will they 
go?
    g) How was the appropriate number determined?
    h) What is the multirole platform the Air Force intends to use to 
replace A-10s? What is the antiarmor, loiter, and refueling capability 
of the new platform?
    General Jackson. a) The Air Force will retain 283 TAI per the FY13 
NDAA to meet a requirement of 242 TAI.
    b) The Army has no direct influence nor is it involved in internal 
deliberations regarding Force Structure. Army input is captured through 
development of Joint Requirements as it relates to war plans.
    c) Moody, GA: 2 x Active Duty Squadrons; Davis-Monthan, AZ: 2 x 
Active Duty Squadrons, 1 x Reserve Squadron (the 357th converts from AD 
to AFRC); Nellis, NV: 13 TAI assigned as components of the USAFWS 
(66WPS) and 422 TES; OSAN, ROK: 1 Active Duty Squadron; Eglin, FL: 2 
Developmental/Test A-10s; Whiteman, MO: 1 Reserve Squadron; Selfridge, 
MI: 1 ANG Squadron; Boise, ID: 1 ANG Squadron; Martin State, MD: 1 ANG 
Squadron; Fort Wayne, IN: 1 ANG Squadron.
    d) The AD/ANG/AFR mix is 143/85/55 or 51%/30%/19%.
    e) The FY 13 NDAA authorizes the retirement of A-10s from 
Spangdahlem, AB, Germany (Active Duty), Ft Smith, AR (ANG) and 
Barksdale, LA (AFRC). This is a total reduction from 344 TAI to 283 TAI 
(-61).
    f) The A-10s removed from Spangdahlem, GE will be redistributed 
across the remaining fleet to maximize the USAF's ability to preserve 
aircraft with the most capability/remaining service life. This kind of 
fleet management is a routine function handled by Air Combat Command.
    g) The appropriate number of Air Force A-10s was an enterprise-wide 
assessment of aircraft inventory and availability relative to COCOM 
requirements.
    h) The F-35 will ultimately replace the A-10. The F-35 is fully 
air-refuelable in the same vein of the F-15/F-16 and F-22. It will be 
able to employ a wide range of precision ordnance. It will have neither 
the loiter endurance of the A-10 nor the anti-armor of the A-10's 30mm 
cannon, but it will bring additional capabilities to the mission.
    Mr. Enyart. The Air Force desires to retire the 65 oldest C-130s. 
Will this have a more profound impact on the Reserve than Active Duty?
    General Jackson. Retiring the 65 oldest C-130s would have a more 
profound impact on the Air Force Reserve than the RegAF. RegAF aircraft 
are being recapitalized with C-130Js leaving manpower and bases without 
impact. The FY13 PB C-130 retirements would have left Maxwell AFB, 
Pittsburgh ARS, and Minneapolis ARS without an Air Force Reserve flying 
mission. Much of this iron has been retained through FY14 (Keesler is 
losing its combat coded C-130Js that are moving to Pope), although in 
some instances without adequate manpower and O&M funding required to 
operate them.
    Mr. Enyart. The Air Force recommends retiring 20 KC-135s. Will 
those be the oldest models? Where will those come from? Will this have 
outsized impact on the Air National Guard and U.S. Air Force Reserve?
    General Jackson. The aircraft will likely be the oldest as was 
stated in the Mar 2012 document: ``USAF Force Structure Changes: 
Sustaining Readiness and Modernizing the Total Force.'' Sometimes the 
oldest aircraft are not in the worst condition--decisions will be a 
result of AFRC and AMC in coordination with engineering advice from the 
AFMC system program manager. For AFRC, 4 aircraft will come from Tinker 
and 1 from March ARB. The retirements do not have an outsized impact on 
the AF Reserve, though the 4 Primary Assigned Aircraft from Tinker have 
commensurate reductions in manpower, flying hours and depot maintenance 
funding.
                                 ______
                                 
                  QUESTION SUBMITTED BY MRS. WALORSKI
    Mrs. Walorski. GEN Ingram, last year 16 Adjutants General requested 
funding to modernize the aging HMMWV. In response, the Appropriations 
Committee honored this request and provided $100M to begin a multiyear 
effort to field new model HMMWVs in Guard units across the country. I 
believe new production HMMWVs should be prioritized as you seek the 
most cost-effective modernization strategy. Can you please provide the 
committee with a sense of what the Bureau and Army has done to execute 
this critical program and of your plans for the near term?
    General Ingram. We are currently examining all the data in order to 
make an informed decision with respect to our HMMWV fleet. We are 
working in concert with the Army and are using the recently released 
Tactical Wheeled Vehicle Study to determine what our current and future 
requirements are for ARNG HMMWVs. As the Army Joint Light Tactical 
Vehicle program matures and is eventually fielded, this new vehicle 
will replace Army and Army Guard HMMWVs. We are moving forward with our 
Army partners to ensure our tactical wheeled vehicle fleet will meet 
the current and future Operational Force requirements.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
